No.
in m)C

Supreme Court of tl)t SJntteb i£>tate£
♦

Russell L. Baldwin
Petitioner,
v.
Suzanne Seida; David M. Seida; Kent Seida, Jr.; Kent Seida, Sr. &
Mary Seida, husband and wife; and Seida Land and Livestock, LLC, an
Oregon limited liability company,
Respondents.
♦

On Petition for Writ of Certiorari To
The Oregon Supreme Court.
♦

PETITION FOR WRIT OF CERTIORARI
♦

Russell L. Baldwin
Counsel of Record, pro se
PO Box 757
Yachats, OR 97498
Telephone (541) 992-4254
Baldwin_atty@embarqmail.com

QUESTIONS PRESENTED FOR REVIEW
Petitioner is a solo practicing attorney who provided legal services to
respondents in an eminent domain matter brought by the State of Oregon in
its state court. He sought to collect his attorney fees under a written fee
agreement and a statutory lien securing his right to be paid.
This petition arises from the separate state court proceeding for
collection of the secured debt, and the court’s failure to foreclose his lien.
Nearly seven years have passed since petitioner perfected his lien in
the eminent domain matter, yet he remains unpaid. After a jury trial, the
state court of general jurisdiction (circuit court) dismissed petitioner’s
complaint. It refused to enter judgment in favor of petitioner to disburse the
fee the State owed, and which the court collected and continues to hold in its
bank account. Petitioner has also been denied any remedy on appeal.
The questions presented are:
1.

Did the state circuit court effectuate a “taking” for purposes of

the Fifth and Fourteenth Amendments to the United States Constitution
when it dismissed petitioner’s lawsuit without exercising its judgment to
disburse his fee from such court’s bank account?
2.

Did the state appellate court effectuate a “taking” as above when

affirming such judgment of dismissal?
♦

11

Identification of Parties to the Proceedings Below.
Petitioner is: Russell L. Baldwin, a member of the bar of this Court,
proceeding pro se. He was the plaintiff in the Lincoln County Circuit Court
proceeding wherein he sought to foreclose his lien for attorney fees filed in
the earlier eminent domain proceeding brought by the Oregon Department of
Transportation. There were no other plaintiffs.
Respondents are: Kent Seida, Sr.; his wife Mary Seida, since deceased;
their adult children Kent Seida, Jr., Suzanne Seida, and David M. Seida; and
the family’s limited liability company Seida Land & Livestock, LLC. Each
respondent was a defendant in the circuit court collection proceeding. There
were no other defendants. Respondents (except for the adult children) were
also defendants (among others) in the earlier related eminent domain matter
brought by the State of Oregon.
♦
List of All State and Federal Proceedings
Directly Related to This Case.
A.

State of Oregon u. SEIDA LAND & LIVESTOCK LLC, an Oregon

Limited Liability Company; Kent R. Seida and Mary Seida, husband and
wife, et al. Lincoln County Circuit No. 140225. Judgments entered
September 16, 2014 and July 2, 2015. No appeal was sought by any party.
This was the eminent domain matter wherein petitioner provided legal

Ill

services to respondents, and perfected his lien to secure his compensation as
allowed by Oregon law, ORS 87.445 et seq.
B.

Russell L. Baldwin v. Suzanne Seida, David M. Seida, Kent Seida

Jr., Kent Seida Sr., Mary Seida, and Seida Land & Livestock LLC, Lincoln
County Circuit No. 15cvl2902. Judgments entered May 23, 2016, June 23
2017, June 26, 2017, December 15, 2017, and March 6, 2018. This was the
collection and foreclosure matter in state court. Appellate review was sought
from each such judgment. All were affirmed without opinion in Oregon Court
of Appeals CA A162400 on April 1, 2020. The Oregon Supreme Court denied
petitioner’s request for reconsideration denying discretionary review on
November 18, 2020, S067838. No appellate judgment has yet issued (as
explained in the petition for writ of certiorari).
C.

Russell L. Baldwin v. Suzanne Seida, David M. Seida, Kent Seida

Jr., Kent Seida Sr., Mary Seida, and Seida Land & Livestock LLC, Lincoln
County Circuit No. 15cvl2902. This proceeding was a cross appeal for
interlocutory review by respondents related to the proceeding stated in B
above. Oregon Court of Appeals A162400; Oregon Supreme Court S065998.
Cross petitioners there sought review from the Oregon Court of Appeals’s
denial of their appeal from the circuit court’s judgment not disbursing the
remaining proceeds of judgment collected by that court in Lincoln Circuit No.
140225 (eminent domain, approx.. $227,000). The Oregon Supreme Court

;

IV

denied respondents’ petition for review by order October 18, 2018.
Respondents thereafter voluntarily dismissed their cross appeal in the
Oregon Court of Appeals. No appellate judgment has yet issued (as explained
in the petition below).
D.

Russell L. Baldwin v. Suzanne Seida, David M. Seida, Kent Seida

Jr., David Bowser, Roger Lenneberg, and Jordan Ramis P.C., Washington
County Circuit No. 17cv31416. Limited judgment was entered on November
15, 2017. This was a suit for wrongful execution after defendants allegedly
violated an automatic stay under Oregon law by garnishing petitioner’s
general operating account to collect their limited judgment for attorney fees
awarded in 15cvl2092. Respondents sought dismissal in that circuit court,
which was denied. They appealed, CA A166511, but lost. Next, petitioner
resolved this matter with respondent Jordan Ramis P.C.’s professional
liability insurer. The limited judgment has been satisfied. Settlement
documents are in the process of being prepared and reviewed.1 Although this
case is directly related to the proceedings described in B and C above, no
portion of this case is sought to be reviewed on writ of certiorari.
♦

1 Petitioner had also sought to resolve the issue raised here, the Lincoln
County Circuit Court’s failure to disburse the proceeds of judgment, but
without success.

V

TABLE OF CONTENTS
Questions Presented for Review

1

Identification of Parties to the Proceedings Below

n

List of All State and Federal Proceedings
Directly Related to This Case..........

n

Table of Contents

v

Table of Authorities

vm

Petition for Writ of Certiorari

1

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

3

Statement of the Case

6

I. Federal Question Preserved Below
1.
2.
3.

Circuit Court.....................
Oregon Court of Appeals
Oregon Supreme Court..

II. Fundamental Facts Essential To Resolution Of
Question Presented....................................................
Reasons for Granting the Writ (Argument)
1. Judicial taking under the “Takings Clause”
/

A. Oregon state law defines the property right....
B. State court error contrary to legislative
enactment............................,........................... ...........
C. Prior decisions of this court....................................

6
6
7
8

9
15
15
16
18
18

VI

2. Judicial “Takings” jurisprudence is in need of
refinement.................................................................

19

3. The record below presents the desired issue

21

4. The Oregon Judiciary has inexplicably left
petitioner without a remedy..........................

22

Conclusion

25

APPENDICES

Bound
separately

I.

Excerpts of Record, Chronological by court.
A. Lincoln County Circuit Court No. 140225,
Supplemental Judgment and Order July 1,
2015........................................................................

A-l to A-4

B. Lincoln County Circuit Court No. 15cvl2092
Complaint, May 12, 2015 with liens attached

B-l to B-68

Order, March 30, 2016

B-69 to B-76

Limited Judgment, May 20, 2016

B-77 to B-78

Supplemental Judgment, June 22, 2017
(awarding $62,000 attorney fees without foreclosure)

B-79 to B-81

Limited Judgment, June 22, 2017
(dismissing respondents Kent & Mary Seida)

B-82 to B-83

Supplemental Judgment, June 22, 2017
(awarding $9,000 more fees without foreclosure)

B-84 to B-86

Excerpted Transcript of Proceedings October 9, 2017
(preservation of federal takings issue at
B-96 to B-100)......................................................................

B-87 to B-102

Vll

Table of Contents, Appendices
--continued
General Judgment December 15, 2017
(dismissing complaint after jury trial and bench trial,
with jury verdict attached)................................................

B-103 to B-115

Supplemental Judgment March 6, 2018 (awarding
$104,000 more attorney fees without foreclosure)...

B-116 to B-117

Supplemental Judgment March 6, 2018 (awarding
$92,000 more attorney fees without foreclosure)...

B-118 to B-119

Petitioner’s Opposition to Respondent’s Motion to
Disburse Funds, December 23, 2020 (preservation of
federal takings issue at B-132 n. 9 to B-135)...............

B-120 to B-138

C. Oregon Court of Appeals, CA A162400
Order, April 1, 2020 (affirming judgments without
opinion)................................................................................

C-l

Petitioner’s objections to respondents’ statement of
attorney fees, October 7, 2020 (preservation of federal
takings issue at C-5)............................................................. C-2 to C-33
[There is no appellate judgment yet per ORAP 13.10
and ORAP 14.05; see App. F and G below]
D. Oregon Supreme Court, S065998
Order denying review, October 4, 2018
(respondent’s cross petition for interlocutory appeal
from judgment refusing to disburse proceeds to
judgment creditors)............................................................

D-l

E. Oregon Supreme Court, S067838
Order denying review, September 17, 2020
(from Court of Appeals affirmance without opinion)...

E-T

Vlll

Table of Contents, Appendices
--continued
Order allowing attorney fees and costs,
December 24, 2020..................... ............

E-2

Order denying reconsideration, February 4, 2021

E-3

[There is no appellate judgment yet per ORAP 13.10
and ORAP 14.05; see App. F and G below]
II.

Oregon Rules of Appellate Procedure (“ORAP”).
F
G

F. ORAP 13.10
G. ORAP 14.05

TABLE OF AUTHORITIES
Cases (Alphabetical)
Baldwin v. Seida,
Lincoln County Circuit No. 15cvl2092,
Oregon Court of Appeals A162400,
affirmed without opinion 303 Or. App. 363 (2020),
Oregon Supreme Court S067838,
rev. den. 367 Or. 75 (2020)........................ ................
Banaitis v. Commissioner of Internal Revenue Service,
340 F.3d 1074 (9th Cir., 2003)................................
Bordenkircher v. Hayes,
434 U.S. 357, 98 S.Ct. 663, 54 L.Ed.2d 604 (1978)
Cotnam v. Commissioner,
263 F.2d 119 (5th Cir.1959)

in

16, 17, 18

8, 25

17, 18

IX

TABLE OF AUTHORITIES, Cases
--continued
Dolan v. City of Tigard,
512 U.S. 374, 114 S.Ct. 2309, 129 L.Ed.2d 304 (1994)

19

Potter v. Schlesser Co.,
335 Or. 209, 63 P.3d 1172, 1174 (2003)

17

Prune Yard Shopping Center v. Robins,

447 U.S. 74, 100 S.Ct. 2035, 64 L.Ed.2d 741 (1980)...
Sinyard v. Commissioner,
268 F.3d 756 (9th Cir.2001)
Stevens v. Cannon Beach,
510 U.S. 1207, 114 S.Ct. 1332, 127 L.Ed.2d 679 (1994)
(SCALIA, J., dissenting from denial of certiorari).......

21

17

7, 8, 20

Stop the Beach Ren., Inc. v. Fla. Dept. Envt’l Protection,
560 U.S. 702, 130 S.Ct, 2592,
6, 7, 8, 18, 19, 20, 21, 22
177 L.Ed.2d 184 (2010)
United States v. Mitchell,
403 U.S. 190, 91 S.Ct. 1763, 29 L.Ed.2d 406 (1971)...

16

Webb's Fabulous Pharmacies, Inc. v. Beckwith,
449 U.S. 155, 101 S.Ct. 446, 66 L.Ed.2d 358 (1980)...

21

United States Code
28 U.S.C. §1257(a)....
United States Supreme Court Rules
S.Ct. Rule 10(c)................... ....... .................

2

18

X

TABLE OF AUTHORITIES
-continued
Oregon Revised Statutes (“ORS”)
ORS 18.082(1)...........................................

ORS 87.445....
ORS 87.450....
ORS 87.475....
ORS 87.475(2)
ORS 87.475(3)
ORS 87.480....
ORS 87.485....
ORS 87.490....

3
4, 5, 23
.....
4, 18, 20
4, 7, 14, 17, 18
7
14
5, 17, 22
5, 8, 12
5, 17, 18

Oregon Rules of Civil Procedure
ORCP23...................................................

12

Oregon Rules of Appellant Procedure
ORAP 13.10.........................................................
ORAP 14.05.........................................................
ORAP 14.05(2)(a).............................................
United States Constitutional Provisions
Amendment V........................................................
Amendment XIII, Section 1................................
Amendment XIV, Section 1.................................

vii, viii, 15
vii, viii, 15
15

3, 7, 9, 16, 19
3, 23, 24
3, 7, 9, 16, 19, 23

Other materials
Linde, Hans A, WITHOUT “Due PROCESS” UNCONSTITUTIONAL
Law IN OREGON, 49 Or.L.Rev. 125, 133-135 (1970).........

23

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for writ of certiorari to review the
judgments of the Lincoln County Circuit Court for the State of Oregon, the
order of the Oregon Court of Appeals affirming those judgments without
opinion, and the order of the Oregon Supreme Court denying review.
♦

OPINIONS BELOW
All Oregon appellate decisions in this action are reported only as line
entries in the official Oregon Reports. That is, neither the Oregon Court of
Appeals nor the Oregon Supreme Court issued a written opinion.
The orders and judgments of the Lincoln County Circuit Court are
attached at Appendix A and B. The order of the Oregon Court of Appeals
affirming those judgments without opinion is listed at 303 Or. App. 363
(2020), and such disposition is attached at Appendix C-l. The Oregon
Supreme Court’s denial of review is listed at 367 Or. 75 (2020). Such
dispositions are attached at Appendix E-l and E-3.
No appellate judgment has issued over the ensuing five months
following denial of review by the state court of last resort, in large part
because petitioner has objected to respondents’ request for yet more
supplemental attorney fees in the Oregon Court of Appeals. Under the
applicable Oregon Rules of Appellate Procedure (“ORAP”, Appendix F and G),

2

there will be no effective appellate judgment in this matter until after such
court resolves petitioner’s objections. They have been pending in the Court of
Appeals without action since October 7, 2020. App. C-2 to C-16.
♦

JURISDICTION
The Oregon Court of Appeals affirmed the circuit court without opinion
on April 1, 2020. Petitioner timely petitioned for review in the Oregon
Supreme Court, and it was denied on September 17, 2020. Petitioner timely
sought reconsideration, and such petition was denied on November 18, 2020.
On March 19, 2020, this Court extended the deadline to file petitions for
writs of certiorari in all cases due after that order date to 150 days. The
deadline in this case is thus April 16, 2021, so this petition is timely.
This Court has jurisdiction to review the decision of the Oregon
Supreme Court on Writ of Certiorari pursuant to 28 U.S.C. §1257(a).
♦

3
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitution of the United States of America provides:
Amendment V:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process
of law, nor shall private property be taken for public use, without just
compensation.
Amendment XIII, Section 1:
Neither slavery nor involuntary servitude, except as a punishment for
crime whereof the party shall have been duly convicted, shall exist
within the United States, or any place subject to their jurisdiction.
Amendment XIV, Section 1:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which
shall abridge the privileges and immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

Oregon Revised Statutes (“ORS”) provide:
ORS 18.082 provides in relevant part:
(1) Upon entry of a judgment, the judgment:
(a) Becomes the exclusive statement of the court's decision in the
case and governs the rights and obligations of the parties that are
subject to the judgment;

4
rk ic •k

ORS 87.445 provides:
An attorney has a lien upon actions, suits and proceedings after the
commencement thereof, and judgments, orders and awards entered
therein in the client’s favor and the proceeds thereof to the extent of
fees and compensation specially agreed upon with the client, or if there
is no agreement, for the reasonable value of the services of the
attorney.
ORS 87.450 provides:
(1) When an attorney claims a lien under ORS 87.445, if the judgment
is for a sum of money only, the attorney must file a notice of claim of
lien with the clerk of the court that entered the judgment within three
years after the judgment is entered. The clerk shall enter the notice in
the register of the court and in the judgment lien record maintained by
the court administrator under ORS 18.075.
(2) When an attorney files a notice of claim of lien under subsection (1)
of this section, the attorney shall send forthwith a copy of the notice to
the client by registered or certified mail sent to the client at the lastknown address of the client.
(3) A lien under ORS 87.445 on a judgment for a sum of money only
remains a lien on the judgment until the judgment remedies for the
judgment expire under ORS 18.180 to 18.190.
(4) For purposes of this section, a “judgment for a sum of money only”
does not include a judgment or order for the payment of money for the
support of any person under ORS 107.095, 107.105, 108.120, 109.155,
419B.400 or 419C.590.
ORS 87.475 provides:
(1) Except as provided in subsections (3) and (4) of this section, the lien
created by ORS 87.445 is not affected by a settlement between the
parties to the action, suit or proceeding before or after judgment, order
or award.

5
(2) Except as provided in subsections (3) and (4) of this section, a party
to the action, suit or proceeding, or any other person, does not have the
right to satisfy the lien created by ORS 87.445 or any judgment, order
or award entered in the action, suit or proceeding until the lien, and
claim of the attorney for fees based thereon, is satisfied in full.
(3) A judgment debtor may pay the full amount of a judgment into court
and the clerk of the court shall thereupon fully satisfy the judgment on
the record and the judgment debtor shall be thereby released from any
further claims thereunder.
(4) If more than one attorney appears of record for a litigant, the
satisfaction of the lien created by ORS 87.445 by any one of the
attorneys is conclusive evidence that the lien is fully satisfied.
ORS 87.480 provides:
Attorneys have the same right and power over actions, suits,
proceedings, judgments, orders and awards to enforce their liens as
their clients have for the amount due thereon to them.
ORS 87.485 provides:
In suits to foreclose a lien created by ORS 87.445, the court shall allow
a reasonable amount as attorney fees at trial and on appeal to the
prevailing party.
ORS 87.490 provides:
(1) Except for tax liens, prior encumbrances and prior liens of record on
the real or personal property subject to the lien created by ORS 87.445,
the lien created by ORS 87.445 is superior to all other liens, including a
lien created by ORS 147.285.
(2) When the lien of an attorney created under ORS 87.445 attaches to
a judgment allowing or enforcing a client's lien, the attorney's lien has
the same priority as the client's lien with regard to personal or real
property subject to the client's lien.
♦

6

STATEMENT OF THE CASE
I. Federal question preserved below.
1.

Petitioner first raised the federal question sought to be reviewed

in circuit court, i.e. the court’s alleged taking of petitioner’s secured lien
against the judgment proceeds in the eminent domain proceeding. App. B-97.
There, petitioner cited the circuit court to this court’s opinion on the takings
issue in Stop the Beach Renourishment, Inc. v. Fla. Dept. Envt’l Protection,
560 U.S. 702, 130 S.Ct. 2592, 177 L.Ed.2d 184 (2010).
The circuit court passed on the federal question by not addressing it. It
refused to allow petitioner to amend his complaint. That court concluded
that petitioner’s lien should not be foreclosed; and it dismissed the complaint
rather than disbursing any of the remaining proceeds of judgment held in its
account to any of the parties. App. B-113 (general judgment of dismissal). It
did these things after confirming that the court was in fact holding
petitioner’s compensation paid into court by the state, for services he
provided to his client in such court. Excerpt of Record (ER.-200 to ER.-201),
attached to petitioner’s opening brief in the Oregon Court of Appeals; App.
A-2 line 9 (judgment acknowledging court’s receipt of such funds).
The circuit court did these things notwithstanding Oregon’s statutory
regime requiring otherwise, i.e. that petitioner be paid before or at the time of

7

payment to the judgment creditor, and according to the priority of his
perfected lien.
2.

Petitioner next raised the federal question in the Oregon Court of

Appeals, in his opening and reply briefs.
In his opening brief at page 23 n. 20, petitioner urged that the general
judgment violated ORS 87.475(2), and that “[s]uch error, if not corrected, will
result in the taking of [petitioner’s] secured claim without compensation in
violation of ... the Fifth and Fourteenth Amendments to the United States
Constitution.”
In his reply brief at page 15 and n. 5, petitioner again asserted that the
circuit court “erred when denying [petitioner] of any judgment to the proceeds
it continues to hold in violation of the constitutional provisions previously
briefed,” with the following citation:
Stop the Beach v. Florida DEQ, 130 S. Ct. 2592, 560 U.S. _, 177
L.Ed.2d 184 (2010)(“It would be absurd to allow a State to do by
judicial decree what the Takings Clause forbids it to do by legislative
fiat. See Stevens v. Cannon Beach, 510 U.S. 1207, 1211-1212, 114 S.Ct.
1332, 127 L.Ed.2d 679 (1994) (SCALIA, J., dissenting from denial of
certiorari).”).

The Oregon Court of Appeals passed on the federal question by not
addressing it. It affirmed all of the judgments below (refusing to pay
petitioner by judgment) without opinion. App. C-l. The federal question was
raised again in supplemental proceedings on the issue of compensability of

8

alleged supplemental attorney fees sought by respondents.1 App. C-5. As
noted above, that issue also remains pending in the Oregon Court of Appeals
since October 7, 2020 without resolution. (The deadline for this petition is
April 16, 2021).
3.

Petitioner next raised the federal question in the Oregon

Supreme Court when petitioning for review, and when petitioning for
reconsideration.
In his amended petition for review at page 19, petitioner urged that his
right to a remedy was protected under Bordenkircher u. Hayes, 434 U.S. 357,
363 (1978), and the Takings Clause, citing Stop the Beach and Stevens, as
quoted supra.
Petitioner also preserved the federal question when asking for
reconsideration:

1 Oregon follows the American rule, whereby litigants are responsible for
their own attorney fees in the absence of a statute providing prevailing party
attorney fees. ORS 87.485 provides a basis for prevailing party attorney fees
on the foreclosure of an attorney’s lien.
The litigation below and on appeal has been driven in large part by
respondents’ desire for ever increasing attorney fees, which they have used as
a cudgel. To date, respondents have sought and have been awarded
approximately $300,000 in fees to obtain dismissal of petitioner’s complaint
in circuit court, and to defend that (error in) judgment on appeal. For his
part, petitioner has sought to settle the entire controversy, without success.
App. B-135 (“Part III”) to B-137 (awaiting settlement authority from opposing
counsel).

9
Denying plaintiff any remedy in the foreclosure proceeding is a serious
mis-carriage of justice. If not corrected, such error will effectuate an
unconstitutional taking by the judiciary under federal law.
k k k

The circuit court’s failure to foreclose plaintiffs lien, and the
intermediate appellate court’s failure to correct that legal error, is an
error in judgment—not in discretion. And such failures if not corrected
will undoubtedly result in an uncompensated (unconstitutional) taking
of two types of property: (1) plaintiffs perfected security interest (the
lien itself), and (2) the money it secures—which remains in the sole
possession and control of the court some five years after it identified
those proceeds as owing for unpaid services provided by plaintiff in
Case B (Judge Leonard).
Each wrong is a grievous legal error of constitutional magnitude
under Or. Const. Art. I, section 10 and the Fifth and Fourteenth
Amendments to the United States Constitution—i.e. if not corrected by
this court of last resort on issues of state law.
Pet. for Reconsid. at pp. 12 and 17-18.
The Oregon Supreme Court passed on the federal question by ignoring
it, thus denying review and reconsideration. App. E-l and E-3.
II.

Fundamental Facts Essential To Resolution Of Question

Presented
1. This case was a collection and foreclosure proceeding brought to
judgment at the insistence of the Lincoln County Circuit Court in a related
case, No. 140225 (“eminent domain case”). App. A-l to A-4 (so requiring).
Circuit court is the court of general jurisdiction in Oregon.
In the eminent domain case, petitioner had represented respondents
Kent & Mary Seida and the family’s limited liability company, as their

10
attorney. They employed petitioner to challenge the value the State had
placed on their real property, after the State had elected to take it by eminent
domain. Petitioner was to be paid by such respondents out of the proceeds of
judgment, on a contingent fee basis. App. B-l (Complaint); App. B-14 (fee
agreement); App. B-58 (petitioner’s amended lien); App. B-67 (respondents’
formerly alleged lien).
2. Petitioner was required to withdraw from further representation
prior to judgment in the eminent domain matter, due to a conflict of interest
caused by respondent Kent Seida, Sr. when tendering to petitioner a check
for $5,000.00 drawn on insufficient funds as payment for services rendered in
an unrelated foreclosure of other real property (his residence). App. B-5 at
112.
3. Petitioner initially sought his compensation in the eminent domain
matter—where his lien was filed—during post-judgment proceedings there.
The circuit court determined that the State be obligated to pay $2,000.00 for
services rendered by petitioner, i.e. expressly not deciding whether
respondents also owed petitioner additional amounts to be paid from the
proceeds of judgment. App. A-l to A-2. Rather than order the State to pay
petitioner the amount the court had awarded, it instead instructed the State
to pay it into court (subject to petitioner’s lien). Id. It also required
petitioner to proceed to judgment in Lincoln Circuit No. 15cvl2092 to be paid

11
any amount from the proceeds of judgment subject to his lien. App. A-3 to A-4
(order).
4. Suit was filed in Lincoln County Circuit No. 15cvl2092. Money
damages and disbursement of the proceeds of judgment were sought. Prior to
trial, that court dismissed respondents Suzanne Seida, Kent Seida Jr., and
David M. Seida after finding that they were not necessary parties, and that
suit against them was “superfluous” under Oregon statute because petitioner
knew his lien had the highest priority. It found:
Plaintiff, as an attorney with 20+ years of experience in civil litigation,
and having handled the ODOT condemnation case, well knew, or at a
minimum may be charged with knowing, that there were no tax liens,
prior encumbrances or prior liens of record on the settlement funds.
Thus, Plaintiff knew that his attorney lien had the highest priority to
the settlement funds.
App.B-73.
Incongruously, the court next entered approximately $62,000 in
attorney fees and costs against petitioner to those dismissed parties by
limited judgment—i.e. because petitioner “knew” he would prevail. App. B77 to B-81. Petitioner timely appealed such judgment to the Oregon Court of
Appeals on June 15, 2016. (This petition arises from that court’s subsequent
affirmance without opinion of all judgments below, App. C-l).
5. About a year after entering such limited judgment, the circuit court
bifurcated the case on the remaining claims and parties. A bench trial was

12
had on plaintiff s request for foreclosure of his lien and disbursement of the
proceeds of judgment in the eminent domain matter. Petitioner requested
that the court determine the priority and amount of petitioner’s and
respondents’ competing claims to the proceeds of judgment, and to enter
judgment accordingly. The circuit court refused to do so. It instead ordered
that it would deny foreclosure due to petitioner’s allegedly insufficient
pleading. Petitioner requested leave to amend his complaint to remedy the
ambiguity identified by the court, but it refused for the stated reason to deny
petitioner prevailing party status (by judgment).2 Transcript of Proceedings,
Lincoln County Circuit Court August 25, 2017, pp. 583 to 598, quoted here in
relevant part:
11
PLAINTIFF MOVES TO AMEND PLEADING
12 MR. NORMAN: Well, the $2,000 is still in court,
13 so I suppose we need to move to amend under 23(B) to add the
14 $2,000 to the attorney fee foreclosure claim so that we can get
15 that money out of court.
COURT DENIES MOTION TO AMEND PLEADING
16
17 THE COURT: Um, I’m going to deny that motion,
18 because that could, uh, trigger, as Mr. Bowser said, a claim
19 that Mr. Baldwin was the prevailing party on the lien
2 ORS 87.485 provides for reimbursement of attorney fees on the foreclosure
of an attorney’s lien.
The court’s refusal to allow the petitioner to amend his complaint under the
applicable court rule, ORCP 23, should be understood as an attempt to
undergird its earlier limited judgment [erroneously] determining the adult
children respondents “prevailing parties” without foreclosing petitioner’s lien.
The circuit court indicated a willingness to disburse the $2,000, i.e. without
disturbing its earlier limited judgment against petitioner.

13
20 foreclosure.
Id. at 591.
6. The circuit court next dismissed petitioner’s complaint with
prejudice by general judgment—after trial—instead of determining the
relative priorities of the competing claims to the judgment proceeds
elsewhere. App. B-103 to B-115. It then entered more supplemental
judgments awarding nearly two hundred thousand dollars in additional
attorney fees and costs to respondents for “prevailing” by judgment of
dismissal (without reaching the merits of the controversy). App. B (each
judgment amount listed in the table of contents for the appendices).
7. The circuit court failed and refused to award petitioner any of the
money that it had expressly collected from the State of Oregon to pay him for
his services—for which that court had earlier found the State liable in the
eminent domain matter (a nominal $2,000). The circuit court also refused to
pay over to respondents the remaining money it held subject to petitioner’s
lien (approximately $227,000). App. B-113 at lines 15 to 20 (ordering
dismissal of suit rather than disbursement).
8.

Petitioner appealed from all judgments, and respondent cross

appealed from the general judgment not paying over the proceeds of
judgment elsewhere. (Respondents later elected to dismiss their cross appeal

14
after having been denied a post-judgment remedy in the Oregon Court of
Appeals and in the Oregon Supreme Court, App. D-l).
9.

On April 1, 2020, the Oregon Court of Appeals affirmed without

opinion each of the circuit court judgments. App. C-l.
10.

The circuit court’s general judgment of dismissal does not allow

for the disbursement of any money held by it in the eminent domain matter.
App B-113 lines 15-21. More than 6 years after judgment in the eminent
domain matter, the state court indisputably holds approximately $227,000 in
judgment proceeds paid into court by the Oregon Department of
Transportation, as a judgment debtor under ORS 87.475(3). Two thousand
dollars of the amount held by that court was expressly paid into court to
reimburse respondents for attorney fees they owed petitioner, but which they
had refused to pay him until after trial.
11.

Petitioner timely sought discretionary review from the Oregon

Supreme Court. Review was denied September 17, 2020. App. E-l.
Petitioner requested reconsideration of that denial, and reconsideration was
denied November 18, 2020. App. E-3.
12.

Following denial of reconsideration, respondents sought

supplemental attorney fees in the Oregon Supreme Court and in the Court of
Appeals. Petitioner objected to all such requests for additional fees because

15
his statutory lien has never been foreclosed: suit was merely dismissed
instead.
13.

The Oregon Supreme Court awarded supplemental fees to

respondents,. App. E-2. The Court of Appeals has not acted on petitioner’s
objections filed on October 7, 2020. App. C-2 to C-33.
14.

Under the applicable Oregon Rules of Appellate Procedure

(“ORAP”), there will be no appellate judgment entered to effectuate the
affirmance of the judgments without opinion, the denial of review in the
Oregon Supreme Court, or the decisions awarding attorney fees and costs on
appeal, until after petitioner’s objections are heard and determined by the
Court of Appeals. ORAP 13.10 and ORAP 14.05(2)(a), App. F & App. G.
15.

Petitioner now petitions this Court for a writ of certiorari within

the time allowed.
♦

REASONS FOR GRANTING THE WRIT
(Argument).
1. Judicial taking under the “Takings Clause”
The writ of certiorari should be granted to affirmatively resolve that a
State court may effectuate an unconstitutional taking by refusing to grant a
remedy that the State’s legislature has afforded its citizens. Allowing the
writ will resolve, in clear and plain terms, whether a State’s judiciary violates

16
the “takings” clause of the Fifth Amendment (as applied to States by the
Fourteenth) by entering a judgment that is incompatible with property rights
defined by state law.
A. Oregon state law defines the property right.
Oregon law is well defined on the property rights and priorities of
attorneys providing services to their clients in court for compensation. For
example, the United States Ninth Circuit Court of Appeals has applied the
Oregon statutory regime as construed by the Oregon Supreme Court.
In Banaitis v. Commissioner of Internal Revenue Service, 340 F.3d 1074
(9th Cir., 2003), judgment from the United States Tax Court was affirmed in
part and reversed in part. Among the issues resolved there was whether
amounts paid to tax-payer’s attorneys under a contingent fee agreement to
successfully litigate a wrongful discharge claim to judgment were properly
includable as tax-payer’s gross income total. As pertinent here, that question
was resolved by how Oregon law defines the attorney’s rights in the action,
and how federal tax law operates in light of that state definition. Id., 340
F.3d at 1081, citing United States v. Mitchell, 403 U.S. 190, 197, 91 S.Ct.
1763, 29 L.Ed.2d 406 (1971).
Ultimately, the Banaitis court found that Oregon law mirrors Alabama
law to provide such lawyers with a statutory lien “superior to all other liens”

17
except “tax liens.” Id at 1082, quoting ORS 87.490. As pertinent here,
Banaitis surveyed Oregon law pertaining to attorney fee liens and held:
Under Oregon law, "a party to the action, suit or proceeding, or any
other person, does not have the right to satisfy the lien ... or any
judgment, decree, order or award entered in the action, suit or
proceeding until the lien, and claim of the attorney for fees based
thereon, is satisfied in full." O.R.S. § 87.475. And Oregon law, like
Alabama law, provides that attorneys shall have "the same right and
power over actions, suits, proceedings, judgments, decrees, orders and
awards to enforce their liens as their clients have for the amount of
judgment due thereon to them." O.R.S. § 87.480. Indeed, Alabama and
Oregon law are almost identical in their treatment of the interest
attorneys have in legal actions.
In some respects, in fact, Oregon goes even further than does the
Alabama law at issue in Cotnam [u. Commissioner, 263 F.2d 119 (5th
Cir.1959)]. As the Oregon Supreme Court stated in Potter v. Schlesser
Co., 335 Or. 209, 63 P.3d 1172, 1174 (2003):
The lien is a charge on the action, and the parties to the action
cannot extinguish or affect the attorney's lien by any means (such as
settlement) other than by satisfying the underlying claim of the
attorney for the fees incurred in connection with the action.
The Oregon Supreme Court, thus, has recognized that an attorney
has a right to sue a third party for attorneys fees that were left
unsatisfied by a private settlement with the attorney's clients. Id. at
215, 63 P.3d 1172. In this sense, the case sub judice presents a different
issue than the one we discussed in Sinyard v. Commissioner, 268 F.3d
756 (9th Cir.2001), in which we held that a third party's discharge of a
debt held by a particular plaintiff constituted income to the plaintiff.
Id. at 758-59. Put simply. Oregon law vests attorneys with property
interests that cannot be extinguished or discharged by the parties to
the action except by payment to the attorney: as a result, Banaitis'

18
claim under Oregon law is akin to — and even stronger than — the
claim in Cotnam.
Because of the unique features of Oregon law, we conclude that
fees paid directly to Merten were not includable in Banaitis' gross
income for the relevant year. Accordingly, we reverse the judgment of
the Tax Court on this question.

Id., 340 F.3d at 1082-1083 (emphasis added).
Thus, Oregon law properly applied as construed by its court of last
resort vests in attorneys a property right which cannot be extinguished
except by payment as first in priority.
B. State court error contrary to legislative enactment.
The Lincoln County Circuit Court erred, and by extension the Oregon
Court of Appeals also erred by affirming the circuit court’s judgment contrary
to the requirements of ORS 87.450(3), ORS 87.475, and ORS 87.490. Those
errors have resulted in a taking of petitioner’s valuable property right defined
by Oregon law. Those courts have thus decided an important federal
question in a way that conflicts with relevant decisions of this court, namely
Stop the Beach Renourishment, Inc. v. Fla. Dept. Envt’l Protection, 560 U.S.
702, 130 S.Ct. 2592, 177 L.Ed.2d 184 (2010) and the authorities set forth
there at Part II of that plurality opinion. Supreme Court Rule 10(c).
C. Prior decisions of this court have passed on the federal question
whether a state can do by judgment that which its legislature and executive

19
are forbidden to do under the Takings Clause to the Fifth and Fourteenth
Amendments to the United States Constitution. In Stop the Beach, supra,
certiorari was granted to consider a claim that a State’s court of last resort
took property without compensation in violation of the Fifth Amendment, as
applied against States through the Fourteenth. Id., citing Dolan v. City of
Tigard, 512 U.S. 374, 383-384, 114 S.Ct. 2309, 129 L.Ed.2d 304 (1994).3
2. Judicial “Takings” jurisprudence is in need of refinement.
Unfortunately, Stop the Beach was only resolved by a plurality. There,
Justice Scalia announced the judgment of this Court, and he delivered the
opinion with respect to Parts I, IV, and V, and an opinion with respect to
Parts II and III, which the Chief Justice, Justice Thomas, and Justice Alito
joined. Stop the Beach concerned a Florida state agency’s administrative
action which arguably changed the character of affected real property from
“ocean front” to less valuable “ocean view.” Part I of the opinion detailed
Florida’s law of “littoral” land, and how the character of property might
change gradually or abruptly over time, through natural phenomena or by
artificial means by dredging and the like.

Certiorari to Oregon Supreme Court.

20
The related question posed, as relevant for this petition, was whether a
State court of last resort could effectuate an unconstitutional taking by its
judgment quashing the remand given in the proceedings below.4
Part II A of this Court’s opinion in Stop the Beach is understood to
survey this Court’s takings jurisprudence. As relevant here, it observed:
The Takings Clause (unlike, for instance, the Ex Post Facto
Clauses, see Art. I, § 9, cl. 3; § 10, cl. 1) is not addressed to the action of
a specific branch or branches. It is concerned simply with the act, and
not with the governmental actor ("nor shall private property be taken"
(emphasis added)). There is no textual justification for saying that the
existence or the scope of a State's power to expropriate private property
without just compensation varies according to the branch of
government effecting the expropriation. Nor does common sense
recommend such a principle. It would be absurd to allow a State to do
by judicial decree what the Takings Clause forbids it to do by
legislative fiat. See Stevens v. Cannon Beach, 510 U.S. 1207, 1211-1212,
114 S.Ct. 1332, 127 L.Ed.2d 679 (1994) (SCALIA, J., dissenting from
denial of certiorari [to the Oregon Supreme Court]).
Our precedents provide no support for the proposition that
takings effected by the judicial branch are entitled to special treatment,
and in fact suggest the contrary. [Citations omitted, primarily

4 This petition urges that the circuit court’s judgment refusing to pay
petitioner his compensation it had collected from the state agency (not less
than the $2,000 it had collected)—and secured by his attorney’s fee lien—was
a taking of petitioner’s personal property. In the same vein, the Court of
Appeal’s failure to correct that error and the Oregon Supreme Court’s denial
of discretionary review were also a taking of the money the circuit court
collected by judgment for petitioner’s benefit.
At trial, when petitioner requested the circuit court to disburse the $2,000 by
judgment in his favor, it refused, and dismissed the complaint instead of
granting petitioner any relief. That was assigned as error below, and
attributed as a “Taking” in the state appellate courts.

21
discussing Prune Yard Shopping Center u. Robbins and Webb’s
Fabulous Pharmacies].
•k it ★

In sum, the Takings Clause bars the State from taking private
property without paying for it, no matter which branch is the
instrument of the taking. To be sure, the manner of state action may
matter: Condemnation by eminent domain, for example, is always a
taking, while a legislative, executive, or judicial restriction of property
use may or may not be, depending on its nature and extent. But the
particular state actor is irrelevant. If a legislature or a court declares
that what was once an established right of private property no longer
exists, it has taken that property, no less than if the State had
physically appropriated it or destroyed its value by regulation. "[A]
State, by ipse dixit, may not transform private property into public
property without compensation." Ibid.
Stop the Beach, 130 S.Ct. at 2601-2602.
3. The record below presents the desired issue.
The federal question raised by this petition squarely presents the
desired issue. It is the same issue which Justice Breyer’s concurrence in Stop
the Beach opined need not be decided there, viz: may a state court’s
judgment effectuate an unconstitutional taking by the state (judiciary) under
federal law? Here, unquestionably, the circuit court’s judgment refusing to
pay petitioner by final judgment the proceeds of its earlier judgment it had
collected for his explicit benefit was a taking in two senses.
First, it took personal property that such court had earlier identified to
the contact between petitioner and respondents Kent & Mary Seida, and

22
their limited liability company. App. A-2 lines 6-14; App. A-3 (last
paragraph).
Second, it arguably made petitioner’s lien ineffectual by dismissing the
complaint with prejudice. App. B-113 (general judgment dismissing
complaint). This second point is only arguable, because Oregon’s statutory
regime does not require a lien claimant against the proceeds of judgment to
foreclose (absent a court directive to do so). ORS 87.450(3); ORS 87.480.
Simply, the lien remains until the judgment creditor is paid, or until the
judgment expires. Id.5
The federal question was explicitly raised in the circuit court prior to
its entry of judgment, with citation to Stop the Beach, but to no avail. The
circuit court denied plaintiff any remedy by dismissing the lawsuit it had
earlier required when refusing to disburse proceeds of judgment to petitioner
in the eminent domain matter. Petitioner’ challenged the state court’s
disposition first under state law because the federal constitutional challenge
is alternative to, not cumulative of, Oregon constitutional law. Linde, Hans

5 As of the date of this petition, the Oregon Court of Appeals has not entered
an appellate judgment because it has not acted on petitioner’s objections to
imposition of yet more supplemental attorney fees following the Oregon
Supreme Court’s denial of discretionary review. The proceeds of judgment
remain subject to petitioner’s lien which has never been foreclosed. The
judgment creditors have not been paid the amount of the judgment, nor has ,
petitioner been paid the value of his lien.

23
A, Without “Due Process” Unconstitutional Law in Oregon, 49
Or.L.Rev. 125, 133-135 (1970).
4. The Oregon Judiciary has inexplicably left petitioner
without a remedy.
The right to be paid for services rendered is a most basic right, and it is
foundational to civil law in our “free” society. U.S. Const. Amend. XIII, sec. 1
and Amend. XIV, sec. 1.
Oregon statute, ORS 87.445 et seq, allowed petitioner to secure his
right to be paid for services he rendered in the eminent domain proceeding,
by filing a lien against the proceeds of judgment there. He followed the
statute, he perfected his lien, and after the circuit court required him to
proceed to judgment in a newly filed case (separate from the eminent domain
matter) he dutifully obliged.
What happened next was shocking to this advocate. The circuit court
dismissed persons who had made written demands to petitioner to “release”
their judgment proceeds. In so doing, that court ordered those dismissed
persons prevailing parties, and it awarded them attorney fees of about
$62,000, nearly half of petitioner’s lien amount. This occurred well prior to
trial, and without the court having foreclosed the attorney’s lien.
At trial, the circuit court refused to determine the relative priorities of
the claimants to the proceeds to judgment, i.e. between petitioner and

24
respondents Kent & Mary Seida and their limited liability company
(defendants in the former eminent domain proceeding). Compare block quote
above at page 11, where that same court (and judge) determined petitioner’s
lien had the highest priority. Instead of providing petitioner with the remedy
of disbursement according to law, it instead awarded more attorney fees
against petitioner, and it refused to disburse the proceeds of judgment. That
court is still holding petitioner’s money (and lien) nearly four years after
trial, and seven years after such lien was perfected in that court.
Petitioner did the work, for respondents in circuit court. Such court
collected his fee among the proceeds of judgment. But at this late date,
petitioner remains unpaid for any of his services rendered in the eminent
domain proceeding.6 And he has been unjustly saddled with “prevailing
party” attorney fees by successive supplemental judgments totaling well more
than twice the amount of his secured lien.
Petitioner should not be punished7 for commencing suit and proceeding
to judgment as the circuit court required for him to be paid under state law.

6 Petitioner also urged in circuit court that it violated the Thirteenth
Amendment (i.e. forbidding indentured servitude without prior conviction of
a crime). Petitioner’s Opposition to Defendants’Motion to Disburse dated
December 23, 2020, at page 2 line 13. His objections there have not been
heard.
7 Note 6, ante.

25

As noted for the Oregon Supreme Court in petitioner’s [unsuccessful]
petition for review, his “right to a remedy by due course of law is similarly
protected under applicable federal law.
To punish a person because he has done what the law
plainly allows him to do is a due process violation of the most
basic sort, and for an agent of the State to pursue a course of
action whose objective is to penalize a person’s reliance on
his legal rights is patently unconstitutional.
Bordenkircher v. Hayes, 434 U.S. 357, 363 (1978).”
Amended Petition for Rev., pp. 18-19.
♦

CONCLUSION.
Petitioner most respectfully requests that writ of certiorari be granted
to resolve whether a state court effectuates an unconstitutional taking when
refusing to disburse proceeds of judgment it has collected from a state agency
in an eminent domain matter to pay the landowner’s attorney fees secured by
a statutory lien, a well-defined property interest under state law.
Respectfully submitted,
s/ Russell L. Baldwin
Russell L. Baldwin, OSB 891890
Counsel of Record
PO Box 757
Yachats, OR 97498
Telephone: (541) 547-3925; Cellular: (541) 992-4254
Email Baldwin_atty@embarqmail.com
Attorney for Petitioner, pro se

